                             Closeout for M99060033



       Our office received an allegation that the subject' plagiarized text into an NSF
proposal. Our inqulry into the allegation determined that the subject had apparently
copied text, from a proposal previously submitted to NSF, into his own proposal.
We determined there was sufficient substance to warrant an investigation. We
notified the subject's institution and deferred our investigation to the institution.

The institution conducted an investigation and provided us with a copy of their
investigation report. The institution determined that the subject had committed
plagiarism and that his plagiarism was an act of scientific misconduct. The
institution recommended the following actions:

       1. Place a letter of reprimand in the subject's personnel file.
       2. Subject must certify that all his pending proposals do not contain
          plagiarism.
       3. Withdrawal of any proposals on which the subject can not make the
          certification in action 2 above.
       4. Demonstrate to the institution his intent to provide students, under his
          research supervision, with instruction on the proper conduct of scientific
          research.
       5. Subject should certify for three years (until 1 July 2003) that any proposals
          he submits contain no plagiarism.

Our review of the institution's report determined that the investigation was thorough,
fair and accurate and we concur with its conclusions. Based on the institution's
report and our own investigation, we determined that the subject committed
misconduct in science. Our investigation report and the NSF Deputy Director's
(DD) 19 Oct 2001 letter reflecting his decision and this memo constitute the closeout
for this case. In his letter, the NSF DD imposes a two-year requirement for
certifications to be submitted to OIG with all NSF proposals.

This investigation is closed and no further action wdl be taken.




' Redacted

                                      Page 1 of 1                                M99-33
                                                            --
    -              .-   ----        - p -

-,          i
'       J   - ,
                                              NATIONAL SCIENCE FOUNDATION
                                                   4201 WILSON BOULEVARD
                                                  ARLINGTON, VIRGINIA 22230




                    OFFICE OF THE
                  GENERAL COUNSEL

             CERTIFIED MAIL --RETURN RECEIPT REOUESTED




            Re: Notice of Misconduct in Science Determination



            The National Science Foundation's (NSF) Office of Inspector General (OIG) issued an
            investigative report in which it found that you plagiarized text in a collaborative proposal fiom a
            prior collaborative proposal submitted to NSF. A copy of the investigative report is enclosed.
            NSF has concluded that you committed misconduct in science when you engaged in plagiarism
            in the collaborative proposal you submitted to NSF's                              in 1998.

             Scientific Misconduct and Proposed Sanctions




             fiom a proposal previously submitted to NSF in     1997. You appeared to be the only
             common element found between the two proposals, as                      was a ~ o - ~ r i n c i ~ a l
             investigator on the source proposal.

            I            d that you acted grossly negligent and in reckless disregard of the accepted standards
             of the academic community when. ou committed the plagiarism at issue. The Office of
             Inspector General agreed with d o n c l h s i o n .

             Under NSF'sregulations, "misconduct" is defined to include "plagiarism, or other serious
             deviation from accepted practices in proposing, carrying out, or reporting results fiom activities
             h d e d by NSF." 45 CFR 8 689.1(a). By submitting a proposal to NSF that copies the ideas or
             words of another without adequate attribution or distinction, as described in the Investi ation
             Report, you misrepresented someone else's work as your own. I therefore agree w i t h h a n d
             OIG that this constitutes plagiarism and a serious deviation from accepted practices under NSF's
             regulations. 45 CFR 8 689.1 (a).


                                       Telephone (703) 292-8060        FAX (703)292-9041
NSF's regulations establish three categories of actions (Group I, 11, and m)that can be taken in
response to a finding of misconduct. 45 CFR 8 689.2(a). Group I actions include issuing a letter
of reprimand conditioning awards on prior approval of particular activities from NSF;and
requiring certifications on the accuracy of reports or assurances of compliance with particular
requirements. 45 CFR 5 689.2(a)(l).

In deciding what response is appropriate, NSF has considered the seriousness of the misconduct,
whether it was deliberate or careless; whether it was an isolated event or part of a pattern; and
whether the misconduct affects only certain finding requests or has implications for any
application for hnding involving the subject of the misconduct finding. 45 C.F.R. 5 689.2(b).

I have considered several mitigating factors in this case. First, d e t e r m i n e d that this was ao
isolated case of plagiarism as it was "Unable to verifjl a pattern of offense." Second, the
Committee found that, though serious enough to constitute misconduct in science, the act
committed was "near the lowest threshold of seriousness." Third, you acted recklessly, rather
than intentionally. Finally, the plagiarized text was background information, rather than a
description of the proposed research.

Another consideration is the actions-already taken b      y      o address the misconduct.
took the following steps in June of 2000 to address the misconduct: (1) it issued a written
reprimand; (2) it required certifications to the Vice Provost of Research that no pending
proposal contains plagiarized material; (3) it required certifications for a period of three years
that the fiture proposal submissions do not contain plagiarized material; and, finally, (4) it
required you to draft a letter evidencing your "intent to assure that students conducting research       --   --   --
under [your] supervision are instructed as to the proper definition of plagiarism and proper
conduct in science."

In light of these midgating factors, I conclude, consistent with the recommendations of OIG, that
the follo\3ring sanctions should be imposed to adequately protect the interests of the Federal
governmint:

         (1) this letter shall serve as an official reprimand for having engaged in the scientific
             misconduct

         (2) you must submit certifications to OIG, for two years, in conjunction with any
   i?;
            documents you submit to NSF for which you have authorship responsibilities stating
            that, to the best of.your$nowledge, tliose documents contain no plagiarized material

This finding of misconduct in science does not preclude you from applying for NSF finding in
the fiture or serving as a merit reviewer.

Procedures Governing Appeals
                                                                                          9%   .?'
Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing, to the Director of the Foundation. See 45 CFR 5 689.9(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, .   ,




Arlington, Virginia 22230. For your information we are attaching a copy of the applicable
regulations. If you have ,aquestions about the foregoing, please call Lawrence Rudolph, General
Counsel at (703) 292-8060.


                                                          Sincerely.



                                               C/         Joseph Bordogna
                                                          Deputy Director


-Enclosures(2)
Investigative Report
NSF's Misconduct in Science Regulations
                       Confidential




   Office of Inspector General


                        OIG Case M99060033                          -   ----    ____
                                                                                   .




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may
be disclosed outside of NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. §$552,552a.
                                                 Summary

The Office of Inspector General (OIG) has concluded that the subject1 committed
plagiksm. The subject incorporated, without attribution and distinction: text from one
proposal3 (the "source proposal") submitted to the National Science Foundation (NSF) into
a separate proposal4 (the "collaborative proposal") subsequently submitted to NSF. The
subject's institution conducted an investigation into the allegation of plagiarism and found
that the subject did plagiarize and that his plagiarism was an act of scientific misconduct?
We concur with the institution's finding.

We recommend that NSF find that the subject committed misconduct in science and take
the following actions. First, NSF should send a letter of reprimand to the subject informing
him that NSF has made a finding of misconduct in science against him. Second, for 2 years
from the final disposition of this case, NSF should require the subject to submit
certifications to OIG, in conjunction with any documents authored by the subject for
submission to NSF, stating that those
                                 - --
                                      documents contain no plagiarized material.

                                                                          --
                                               Background

We received an allegation that the collaborative proposal contained material also contained
in the source proposal. The sole common denominator between these two proposals
appeared to be the subject: he was a co-PI in the collaborative proposal and
              a co-PI for the source proposal. We initially identified approximately 27 lines - -   -

of text in-the -collaborative-.proposal, specifically the "Introduction and Background," as
identical or substantially similar to material in the "Project Hypothesis" section of the source
proposal. The identical and substantially similar text is presented in the collaborative
proposal without attribution and distinction.


                                              OIG's Inquiry
We wrote to.the subject and asked him to explain the presence of the identified material in
the collaborative proposal.6 In his written response, the subject admitted that he did
"paraphrase" the material from the source proposal.7 He also stated that the information




6 See ~ G e n d i x
                  4: OIG's Inquiry h e r (dated  st     13, 1999):
 7   See Appendix 5: Subject's Response to OIG's Inquiry Letter (dated "September7, 1998").
paraphrased was provided to him by                                              one of the PIS
listed on the source proposal.9 As to why the subject did not distinguish the copied material
in some way from his otherwise original proposal materials, he explained that, "as the
information that was recycled was strictly limited to background and the interpretation of the
primary literature, only references to the primary literature were retained."1°

We wrote to the                                        and asked for his recollection of the
subject's interaction with the source proposal." He stated that he did not provide the
subject with a copy of the source proposal or any information contained therein.12 The
         added that his recollection was that the subject first saw the source proposal when
the subject visited his laboratory during an unrelated research e~pedition.'~

We subsequently learned that the same lines of text first identified as duplicative in the
collaborative proposal, appeared again in a pre-proposal'4 submitted to NSF after the
collaborative proposal was declined. The subject was listed as PI on the pre-proposal."

Based on the subject's response and the information supplied by the subjea's former Ph.D.
advisor~we-concluded    that the allegation-was-substantive. On January 10,2000, we formally
                                                                             -.

deferred the investigation of this case to the subject's instituti~n.'~


                                          Institution's Inquiry

The subject's institution first conducted an in*        into the allegation that the collaborative *
proposal' contained~-material-that-had--been---plagiarized--by the subject from the source
proposal. On J a n u q 24, 2000, we received the inquiry report issued by the Vice Provost
for Research of the subject's institution." The Vice Provost had asked the
                 whethe; it is implied in his laboratory that students and -postdoaonl
researchers may incorporate material from declined proposals into their own doc~rnents.'~
The                                       informed the Vice Provost that such an implicit
understanding does not exist.19 Consequently, the Vice Provost for Research "concluded
that there is sufficient substance to the allegation to warrant an investigation."20




9 See Appendix 5:   Subject's Response to OIG's Inquiry Letter.
10 Id.
'1-=Kppenndix 6: OIG's Information Request to Fonner PhD. Advisor (dated ~ o q m b e 29,
                                                                                     r 1999).
 12 See Appendix 7:                           Response to OIG's Information Request (dated
 December 1, 19991.




16       Appendix 9: OIG's Deferral Letter (dated January 10,2000).
17   See Appendix 10: Vice Provost's Inquiry Report (datedJanuary18,2000).
18   Id., at 2.
19   Id.
20 Id.
                                           Institution's Investigation

    The institution appointed a three-member committee to investigate the allegation of                                 .
    plagiarism. On July 7, 2000, we received the committee report.21 The committee reviewed
    the written materials in question and interviewed the subject as well as the other individuals
    who were prirnanly involved in the development of the proposals.

    ~nsufnmary,the committee stated:

             [ m e preponderance of evidence indicates that there was serious deviation
             on the part of [the subject] from accepted standards of scientific conduct.
             Specifically, the Committee has concluded that plagiarism did occur and that
             it resulted from gross negligence (recklessness) on the part of [the subject].
             . . . m e subject's] insistence that his actions did not constitute misconduct
             and the approach he takes to developing proposals, including using verbatim
             language from source documents without sufficient care to identify and
             attribute the language properly, are likely to lead to further episodes of
             plagiarism unless corrected. . . .22

    The committee described a total of approximately 34 lines of text as plagiarized from the
    source proposal into the collaborative proposal and the pre-proposa.l?
                                                                                                                   - --- - -
                                                                                                                            --
-
    The
    -    institution's Provost stated his concurrence wiih the committee's conclusion that the -                                 -   .--

    subject committed --5iact-of scientific -misconduct in a letter to the subject dated
    June 29, ~ O O . ' ~


                                            Institution's Resolution

    The committee "determined that by most criteria the act committed by [the subjeal, though
    serious enough to warrant a finding of misconduct, was near the lowest threshold of
    seriou~ness."~~
                  The committee recommended formally imposing four actions:26

              1. The Provost should send a letter of reprimand to the subject and place a copy of
                 it in the subject's personnel file.
      --                                                 -
         -



    21 See Appendix 11: Committee's InvestigarionReport (datedJune 1,2000).
    *Id., at 1.
    23 Id., at 7. As mentioned above; we initially identified 27 lines of text. The committee determined & the
    subject had plagiarized 41 lines of text from the source proposal into the draft he prepared for inclusion in the
    collaborative proposal. The M deleted 7 of the p l @ d lines of text from the draft when editing the
    collaborativeproposal, leaving 34 lines. The pre-proposal submitted by the subject contained the same 34 lines
    as the collaborative proposal.
    z4 See Appendix 3: Provost's Letter of Reprimand
    25 See Appendix 11: Committee's Investigation Report, at 1.
    26 Id, at 15.
                            2. The subject should certify to the Vice Provost for Research that his pending
                               proposals do not contain plagiarized material. The subject should withdraw any
                               pending proposals for which he is unable to make this certification.

                            3. The subject should demonstrate to the Provost his intent to provide students
                               conducting research under his supervision with instruction on the proper
                               conduct of scientific research, including a special emphasis on the impropriety of
                               plagiarism.

                            4. The subject should certify, for a period of three years, that any proposals he
                               submits do not contain plagiarized material.

                 The Provost accepted the committee's report and adopted its formal recommendations in
                        The status of the sanctions imposed by the institxtion, as described above, are as
                 follows:28

                 1.         The Provost sent an official letter of reprimand to the subject on June 29,2000;
                        -
                 2.         Thi Gbject has ceriified-that-the one proposal for funding that was pending did not
                            contain any plagiarized material. That proposal was subsequently not funded;

                 3.         The subject has indicated that he has not submitted any new proposals;

                 4.         The subject has provided assurances that he is instructing his students in the
                                          -- - of scientific inquiry, including special attention to avoiding
                            appropriate conduct
                                         .

                            plagiarism.


                                                          OIG's Assessment
                                                                                                           - --     -
                 We believe the institution's investigation report describes a fair, accurate, and thorough
                 evaluation of the facts relevant to the allegation. We have used the institution's report in
                 forming our own conclusion and in recommending a finding of misconduct in science.

        --   -NSF-defines-misconduct-ks-cisnf_e,            in relevant part, as "[flabrication, falsification,
                                                                                                 -..--
                                                                                    --i-i-------.---

                plagiarism, or other serious deviation from accepted practices m proposing, carrymg out, 5 r
                reporting results from activities funded by NSF . . . ."29 Before recommending a finding of
                misconduct in science against a subject, we assess whether a preponderance of the evidence3'
                supports a conclusion that the-subject committed a bad-act with a level of culpable intent
                 (e*,       fFoss negligence) that justifies taking action against the subject.

-   -
          In deciding what actions are appropriate when misconduct is found, NSF officials should
    ~ ~ & e e r i o ~ ~ n e s s - o f - ~ e - m i s e o n d u a ~ A t erniscondu~~x.
                                                                                  n t - ~ e


                 27 See ~ppLdix3: Provost's Letter of Reprimand
                 28 See Appendix 12: Provost's Letter to OIG (dated February 7,2001).
                 29 45 C F R § 689.1(a)(l).
                 30 45 CFIL R. 689.2(d).
committed, whether the misconduct was an isolated event or part of a pattern, and finally
the relevance of the misconduct to other funding requests or awards."



The subject admitted that he "paraphrased" or "recycled" the text from the source
proposal.'2 He indicated that he did not attribute or distinguish this material because "the
information that was recycled was limited to background and the interpretation of primary
literature," and that                        had given him implied permission to do so."

We concur with the committee's determination that "the text in question is almost
completely verbatim, with only a few modest changes and is, therefore, not an instance of
paraphrasing."34 The subject's explanation that he believed he could "recycle" text materials
does not account for the subject's failure to properly attribute and distinguish the copied text
in the collaborative proposal. Regardless of whether the subject had
implied permission to use the text in the collaborative proposal, he was still obligated to
properly attribute and distinguish the copied text as the creation of the actual author.

We conclude that a preponderanre- of the -evidence demonstrates that the subject copied
approximately 34 lines of text without attribution and distinction from the source proposal
into material intended for incorporation into the collaborative proposal. Our conclusion
concurs with that of the institution's investigation co~nrnittee?~



The subject told-the committee that-he-had-t-aken-notesfrom the source pr0posal.3~He also
explained that his notes included verbatim text that was not identified or distinguished as
such and this text was later inadvertently incorporated in an unattributed and
undistinguished manner when he used his notes to prepare material for the collaborative
proposal?7 The committee concluded that the subject's "technique of copying language
verbatim without identifying it as such is likely to lead to plagiarism, however unintentional,
and thus represents gross negligence and reckle~sness."'~

We concur that the subject was at least grossly neghgent when he copied 34 lines of verbatim
text from the subject proposal into his notes without noting their source, and then later
using these notes to prepare materials for the collaborative proposal?9

31   45 C.FR § 689.2(b).
32 See Appendix     5: Subject's Response to OIG's Inquiry Letter and Appendix 11: Committee's Investigation
Report, at 8.
33 See Appendix 5: Subject's Response to OIG's Inquiry Letter.
34 See Appendix 11: Committee's Investigation Report, at 8.
35 See Appendix 11: Committee's Investigation Report, at 7.
36 Id., at 9.
37 Id, at 9-10.
38 Id.. at 10.
39 he subject provided no widence to cormborate his professed method of copying verbatim text when taking
notes. We find it doubtful that anyone would copy verbatim text from an introduction/background section of
a              for possible reference use at a later time. However, in light of the relatively minor nature of the
misconduct here, we do not beliwe it is important to establish whether the subject's actions were knowing or
willful rather than grossly negligent.
 The subject maintains that "no scientific misconduct was intended, implied, or attem~ted."~'
 The committee attributed this statement to the subject's failure to comprehend the definition
 of plagiarism and to his method of note-taking without proper citation.41 Nonetheless, it is
 incumbent upon the subject, as a member of the scientific and engineering community, to
 familiarize himself with the appropriate standards of conduct and behave accordingly. The
 subject's failure to properlyrecord and atuibute the original proposal materials represents an
 act of gross negligence.

 S         m   s ofSt&ct's   A c h

 The subject presented a significant amount of unattributed and undistinguished text written
 by another as his own. The committee concluded that although "the volume of plagiarized
 material was comparatively small . . .the act of plagiarism committed by [the subject] [was]
 sufficiently serious to be classified as misconduct in ~cience."~'We agree that the subject's
 grossly negligent actions in copying and presenting the text without attribution or distinction
 was a,serious deviation from the accepted standards of practice of the scientific and
 engineering-community.
                                  --          .-  - - - _ _ _ __       -       - --

 Strbriat'sActions as an Isolated E m or R
                                         @           Bthzub

  The committee stated that it "was unable to verify a pattern of offense."43 The committee
  determined that the submission of the pre-proposal was not evidence of a pattern because
-thesubject did not submit the unattributed and undistinguished copied text on more than
  one occasion with regard to both the collaborative proposal and pre-proposal. The
  committee based this determination on the fact that the collaborative-proposal's lead PI
  fashioned the pre-proposal out of material he extracted from the collaborative prop~sal.~"
  We agree that these separate-submissions are not indicative-of a pattern of behavior.

 We are not aware of other evidence demonstrating that the subject has on past occasions
 misappropriated text.

 ORldusum

 The subject seriously deviated from accepted practice when he included 34 lines of
 unattributed and undistinguished copied text into material intended for incorporation into
 the collaborative proposal. The subject's actions were at least grossly negligent. We
 conclude
  .-
           that the subject committed misconduct in science (plagiarism).
                    -                   ---     -- --    -. -    -..      --




 40 See Appendix 5: Subject's Reply Lerter, see also Appendix 11: Committee's Investigation Report, at 8-9.
 41 See Appendix 11: Co&ttee7s Investigation Report, at 10.
 42 Id., at 13.
 43 Id., at 11.
 44   Id
                                    OIG's Recommended Disposition

Based on this information, and in consideration of the ciircurnstances discussed above, we
recommend that NSF take two actions as a final disposition in this case:

            1. NSF should send a letter of reprimand to the subject informing him that he has
               been found to have committed misconduct in science.45

            2. For a period of 2 years, NSF should require the subject to suhmit certifications
               to OIG, in conjunction with any documents the subject submits to NSF or with
               any documents submitted to NSF for which the subject has authorship
               responsibities, stating that, to the best of his knowledge, those documents
               contain no plagiarized materialP6              . .




45
6                                                          //
     This is a Group I action (see 45 C.FR § 689.2(a)(l)(i))..,/
     This is a Group 11 action (see 45 C.FK § 689.2(a)(2)@).
                                                / -
                                                ,
